      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




June 21, 2011

TO:             Margaret A. Hamburg, M.D.
                Commissioner of Food and Drugs


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Review of the Food and Drug Administration’s Monitoring of Imported Food
                Recalls (A-01-09-01500)


The attached final report provides the results of our review of Food and Drug Administration’s
monitoring of imported food recalls.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-01-09-01500 in all correspondence.


Attachment
Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF THE FOOD AND DRUG
      ADMINISTRATION’S
        MONITORING OF
   IMPORTED FOOD RECALLS




                    Daniel R. Levinson
                     Inspector General

                        June 2011
                      A-01-09-01500
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Food and Drug Administration (FDA) is responsible for safeguarding the Nation’s food
supply by ensuring that all ingredients are safe and free from disease-causing organisms,
chemicals, or other harmful substances. No statute existed prior to 2011 to authorize FDA to
require manufacturers/processors or importers to recall food except for infant formula. When a
problem arises with a particular food, the manufacturer/processor or importer may voluntarily
recall the product.

FDA established regulations (21 CFR part 7) that are explicit in that the regulations are
nonbinding guidance that FDA and the recalling firm should consider in planning and
implementing a recall. This report refers to these regulations as “recall guidance.” The recall
guidance specifies that when a firm initiates a recall, FDA should assess the seriousness of the
health hazard that the recalled product poses and assign a recall classification of Class I, II, or III.
Class I indicates the greatest health hazard. The recall guidance also specifies the elements of
the firm’s recall process that FDA should monitor and assess in determining the adequacy of the
firm’s recall. These elements include recall initiation, recall strategy, recall communications,
recall status reports, and product disposal.

From July 1, 2007, through June 30, 2008, FDA oversaw 40 Class I recalls of imported food
products contaminated with pathogens and other harmful substances that can cause serious
illnesses. We reviewed FDA’s monitoring of 17 of the 40 recalls. Of the 17 recalls, 7 were for
Salmonella, 5 were for Listeria monocytogenes, 4 were for Clostridium botulinum, and 1 was for
unacceptable lead levels in beverage pitchers.

In January 2011, the President signed the FDA Food Safety Modernization Act. This law gives
the Secretary of Health & Human Services authority to conduct mandatory recalls and assess and
collect fees related to food facility reinspections and food recall orders.

OBJECTIVES

Our objectives were to determine whether (1) FDA’s guidance for developing and implementing
food recalls was adequate to ensure the safety of the Nation’s food supply and (2) FDA followed
its own procedures for ensuring that the recall process operated efficiently and effectively.

SUMMARY OF FINDINGS

FDA’s guidance for developing and implementing food recalls was not adequate to ensure the
safety of the Nation’s food supply because it was not enforceable. In addition, FDA did not
always follow its own procedures for ensuring that the recall process operated efficiently and
effectively.




                                                   i
Our review of FDA’s records relating to 17 recalls found the following problems:

   •   Firms did not promptly initiate recalls. Two of the seventeen recalls were not initiated
       until 28 and 102 days, respectively, after FDA became aware of the contamination.

   •   Firms did not submit recall strategies or strategies did not contain complete information.
       For 3 of the 17 recalls, firms did not submit any recall strategies. For the 14 other recalls,
       the strategies submitted did not contain complete information.

   •   Firms did not issue accurate and complete recall communications to their consignees.
       For 13 of the 17 recalls, firm communications did not contain essential information on
       the contaminated products or contained inaccurate information.

   •   Firms did not submit timely and complete recall status reports. Of the 17 recalling firms,
       5 firms did not submit any reports, 10 firms submitted untimely and incomplete reports,
       and 2 firms submitted timely but incomplete reports.

Because FDA’s food recall guidance is nonbinding on the industry, FDA cannot compel firms to
follow it and therefore FDA cannot ensure the safety of the Nation’s food supply.

FDA did not always follow its own procedures to ensure that the recall process operated
efficiently and effectively. Specifically, FDA:

   •   did not conduct firm inspections or obtain complete information on the contaminated
       products in 14 of the 17 recalls,

   •   did not conduct any audit checks of consignees in 5 of the 17 recalls and conducted
       untimely and incomplete audit checks in the remaining 12 recalls,

   •   did not review recall strategies and promptly issue notification letters to firms conveying
       the review results and essential instructions in all 17 recalls, and

   •   did not witness the disposal of the products or obtain the required documentation
       showing that the products had been properly disposed of in 13 of the 17 recalls.

RECOMMENDATIONS

We recommend that FDA:

   •   consider the results of this review in implementing the FDA Food Safety Modernization
       Act and

   •   follow its procedures for monitoring recalls.




                                                 ii
FOOD AND DRUG ADMINISTRATION COMMENTS

In its written comments on our draft report, FDA agreed with our recommendations and
described actions it has taken to improve how recalls are conducted and monitored. FDA’s
comments are included in their entirety as Appendix C.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                        Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Food and Drug Administration Recall Authority ....................................1
              Recall Guidance and Related Procedures ................................................1
              Recent Recalls of Imported Food ............................................................2
              Initiatives To Better Protect the Food Supply and
                Increase Recall Authority .....................................................................2
              Prior Office of Inspector General Reviews ..............................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .............................................2
               Objectives ................................................................................................2
               Scope ........................................................................................................3
               Methodology ............................................................................................3

RESULTS OF AUDIT ...................................................................................................4

          FIRMS’ RECALL ACTIVITIES .........................................................................5
               Recall Initiation........................................................................................5
               Recall Strategies.......................................................................................5
               Recall Communications ...........................................................................6
               Recall Status Reports ...............................................................................7

          FOOD AND DRUG ADMINISTRATION RECALL ACTIVITIES .................8
               Firm Inspections.......................................................................................8
               Audit Checks ............................................................................................8
               Recall Strategies.......................................................................................9
               Product Disposal ......................................................................................10

          RECOMMENDATIONS .....................................................................................11

          FOOD AND DRUG ADMINISTRATION COMMENTS .................................11

APPENDIXES

          APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REVIEWS

          APPENDIX B: REVIEW OF 17 SELECTED IMPORTED FOOD RECALLS

          APPENDIX C: FOOD AND DRUG ADMINISTRATION COMMENTS




                                                                    iv
                                         INTRODUCTION

BACKGROUND

Food and Drug Administration Recall Authority

Pursuant to the Federal Food, Drug, and Cosmetic Act (the Act) (21 U.S.C. § 301 et seq.), the
Food and Drug Administration (FDA) is responsible for safeguarding the Nation’s food supply
by ensuring that all ingredients are safe and free from disease-causing organisms, chemicals, or
other harmful substances.

No statute existed prior to 2011 to authorize FDA to require manufacturers/processors or
importers to recall food except for infant formula. When a problem arises with a particular food,
the manufacturer/processor or importer may voluntarily recall the product. Within FDA, the
Center for Food Safety and Applied Nutrition (CFSAN) and the Office of Regulatory Affairs
(ORA) are responsible for overseeing firm-initiated recalls of food. The FDA district office in
the recalling firm’s geographical region is designated as the lead district and is responsible for
providing guidance to the firm and for monitoring day-to-day recall activities.

Recall Guidance and Related Procedures

FDA established regulations (21 CFR part 7) that are explicit in that the regulations are
nonbinding guidance that FDA and the recalling firm should consider in planning and
implementing a recall. This report refers to these regulations as “recall guidance.” The recall
guidance (21 CFR § 7.3(g)) defines a “recall” as a firm’s removal or correction of a product that
FDA considers to be in violation of law. The recall guidance specifies that when a firm initiates
a recall, FDA should assess the seriousness of the health hazard that the recalled product poses
and assign a recall classification of Class I, II, or III. Class I indicates the greatest health hazard.
The recall guidance also specifies the elements of the firm’s recall process that FDA should
monitor and assess in determining the adequacy of the firm’s recall. These elements include
recall initiation, recall strategy, recall communications, recall status reports, and product
disposal.

FDA’s recall procedures, which are based on the recall guidance, generally include classifying,
publicizing, and monitoring firm recalls and assessing their effectiveness. These procedures are
detailed in FDA’s Regulatory Procedures Manual (Procedures Manual) and Investigations
Operations Manual (Operations Manual). Included in these manuals are procedures for FDA to
follow when inspecting firms and conducting audit checks of the firms’ consignees (primarily
distributors and retailers). FDA has also developed the publications Guidance for Industry:
Product Recalls, Including Removals and Corrections (Industry Guidance) and Methods for
Conducting Effectiveness Checks to assist firms in handling recalls. These publications include a
checklist and other information that FDA uses to monitor and evaluate recalls.




                                                   1
Recent Recalls of Imported Food

From July 1, 2007, through June 30, 2008, FDA oversaw 40 Class I recalls of imported food
products contaminated or potentially contaminated with pathogens and other harmful substances
that can cause serious illnesses, such as salmonellosis, listeriosis, and botulism. 1 The imported
food products included beverage pitchers containing unsafe levels of lead.

Initiatives To Better Protect the Food Supply and Increase Recall Authority

In the Action Plan for Import Safety (action plan), which was issued in November 2007, the
Interagency Workgroup on Import Safety, consisting of 12 departments and agencies and chaired
by the Secretary of Health & Human Services, outlined recommendations for improving the
safety of imported products. In conjunction with the action plan, FDA issued its Food
Protection Plan. The Food Protection Plan addresses prevention (building in safety from the
start), intervention (using risk-based inspections and tests), and response (responding rapidly and
communicating effectively when problems are identified).

Several bills were introduced during the 111th session of Congress to authorize FDA, through the
Secretary, to mandate food recalls and to dictate and enforce the terms of recalls. In January
2011, the President signed the FDA Food Safety Modernization Act (P.L. No. 111-353 (Jan. 4,
2011)). This law gives the Secretary of Health & Human Services authority to conduct
mandatory recalls and assess and collect fees related to food facility reinspections and food recall
orders. The Secretary will identify preventive programs and practices to promote the safety and
security of food and is authorized to order an immediate cessation of distribution and recall of
food. The law provides for foreign supplier verification activities and the inspection of foreign
facilities registered to export food.

Prior Office of Inspector General Reviews

The Office of Inspector General has conducted several recent reviews that have raised questions
about FDA’s ability to protect the Nation’s food supply. The recommendations in those reports
generally called for strengthening FDA’s recall authority through legislative and regulatory
change. Appendix A summarizes the results of these reviews.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) FDA’s guidance for developing and implementing
food recalls was adequate to ensure the safety of the Nation’s food supply and (2) FDA followed
its own procedures for ensuring that the recall process operated efficiently and effectively.




1
 The pathogens that cause salmonellosis, listeriosis, and botulism are Salmonella, Listeria monocytogenes, and
Clostridium botulinum, respectively.


                                                         2
Scope

We reviewed FDA’s monitoring of 17 of the 40 Class I recalls of imported food products. These
recalls were initiated by 17 firms from July 1, 2007, through June 30, 2008. Of the 17 recalls,
which are listed in Appendix B, 7 were for Salmonella, 5 were for Listeria monocytogenes,
4 were for potential contamination with botulinum toxin, and 1 was for unacceptable lead levels
in beverage pitchers. The food products recalled included cantaloupe, frozen mussel meat, fish,
cheese, and sesame seed.

To gain an understanding of FDA’s recall process, we conducted a limited review of FDA’s
internal controls as they related to our audit objective.

We performed our fieldwork at FDA headquarters in College Park and Rockville, Maryland, and
at six FDA district offices.

Methodology

To accomplish our objective, we:

   •    reviewed Federal laws, regulations, policies, and procedures related to food recalls;

   •    identified from FDA’s recall database the 40 Class I recalls of imported food products
        and judgmentally selected 17 recalls involving the most hazardous substances for review;

   •    evaluated the timeliness and completeness of FDA’s recall monitoring by reviewing
        information maintained at district offices and CFSAN and data in ORA’s recall database;

   •    reviewed firm recall notices, strategies, and status reports for compliance with recall
        guidance;

   •    reviewed district office case file information to determine whether contaminated products
        were properly disposed of;

   •    reviewed firm inspection reports prepared by FDA investigators;

   •    reviewed the timeliness, accuracy, and completeness of FDA’s audit checks of
        consignees; and

   •    interviewed FDA officials involved in the recall process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                                 3
                                     RESULTS OF AUDIT

FDA’s guidance for developing and implementing food recalls was not adequate to ensure the
safety of the Nation’s food supply because it was not enforceable. In addition, FDA did not
always follow its own procedures for ensuring that the recall process operated efficiently and
effectively.

Our review of FDA’s records relating to 17 recalls found the following problems:

   •   Firms did not promptly initiate recalls. Two of the seventeen recalls were not initiated
       until 28 and 102 days, respectively, after FDA became aware of the contamination.

   •   Firms did not submit recall strategies or strategies did not contain complete information.
       For 3 of the 17 recalls, firms did not submit any recall strategies. For the 14 other recalls,
       the strategies submitted did not contain complete information.

   •   Firms did not issue accurate and complete recall communications to their consignees.
       For 13 of the 17 recalls, firm communications did not contain essential information on
       the contaminated products or contained inaccurate information.

   •   Firms did not submit timely and complete recall status reports. Of the 17 recalling firms,
       5 firms did not submit any reports, 10 firms submitted untimely and incomplete reports,
       and 2 firms submitted timely but incomplete reports.

Because FDA’s food recall guidance is nonbinding on the industry, FDA cannot compel firms to
follow it and therefore FDA cannot ensure the safety of the Nation’s food supply.

FDA did not always follow its own procedures to ensure that the recall process operated
efficiently and effectively. Specifically, FDA:

   •   did not conduct firm inspections or obtain complete information on the contaminated
       products in 14 of the 17 recalls,

   •   did not conduct any audit checks of consignees in 5 of the 17 recalls and conducted
       untimely and incomplete audit checks in the remaining 12 recalls,

   •   did not review recall strategies and promptly issue notification letters to firms conveying
       the review results and essential instructions in all 17 recalls, and

   •   did not witness the disposal of the products or obtain the required documentation
       showing that the products had been properly disposed of in 13 of the 17 recalls.




                                                 4
FIRMS’ RECALL ACTIVITIES

Recall Initiation

Recall Guidance

Recall guidance (21 CFR § 7.46(c)) states: “A firm may decide to recall a product when
informed by the Food and Drug Administration that the agency has determined that the product
in question violates the law, but the agency has not specifically requested a recall.”

Firms’ Initiation of Recalls

Firms did not always take prompt action to initiate recalls. Although 15 recalls were initiated
within 10 days after FDA became aware of the contaminated food products, the 2 remaining
recalls were not initiated until 28 and 102 days, respectively, after FDA became aware of the
contamination. The two recalls involved Listeria monocytogenes-contaminated mussel meat
from a manufacturer/processor in New Zealand.

Recall Strategies

Recall Guidance

Recall guidance (21 CFR § 7.42(a)(1)) states that the recalling firm will develop a strategy for a
firm-initiated recall and recommends that the strategy address the following elements:

   •   Depth of recall. The recall strategy “will specify the level in the distribution chain
       [i.e., consumer level, retail level, or wholesale level] to which the recall strategy is to
       extend” based on the product’s degree of hazard and extent of distribution.

   •   Public warning. The recall strategy “will specify whether a public warning is needed” to
       alert the public that the product being recalled presents a serious health hazard.
       Furthermore, FDA’s Industry Guidance, part B.1., states that when the product may pose
       a significant health hazard and is in the hands of consumers, a press release should be the
       highest priority and should be issued promptly.

   •   Effectiveness checks. The recall strategy “will specify the method(s)” that the recalling
       firm should use to conduct effectiveness checks of consignees and the FDA-determined
       level of the checks (from Level A, checks of 100 percent of consignees, to Level E, no
       effectiveness checks). Effectiveness checks involve contacting distributors and retailers
       by visits, telephone calls, and/or letters to verify that they have been notified of the recall
       and have taken appropriate action.

Firms’ Recall Strategies

Not all firms submitted recall strategies or strategies containing complete information on recall
depth, public warnings, and the level of effectiveness checks.


                                                  5
Three firms did not submit any written recall strategies, and FDA did not maintain evidence of
any verbal discussions with these firms on their recall strategies. The 14 other firms submitted
incomplete recall strategies, as follows:

   •   For nine recalls, the strategies did not address the depth of the recalls. For example, the
       strategy for a recall of Salmonella-contaminated cantaloupes did not specify the level in
       the distribution chain to which the recall would extend. The firm’s product distribution
       information indicated that its customers consisted of wholesalers,
       manufacturers/processors, and retailers. However, we found no evidence that the recall
       was extended to the retail level.

   •   For nine recalls, either the strategies did not address the need for public warnings or the
       firms did not issue prompt warnings. Eight of the nine strategies did not address the need
       for public warnings. These recalls involved contaminated products that were sold at the
       retail level, but we found no evidence that the public had been warned or an explanation
       for the lack of public warning. For example, in a recall of Listeria monocytogenes-
       contaminated mussel meat that a firm had distributed to 16 consignees, including
       retailers, neither the firm nor FDA issued a warning to inform the public of the recalled
       product and the names of the retailers that carried it. As a result, many consumers were
       unaware of the product’s potential risk. For the other recall, the firms did not issue press
       releases for more than a week after initiating the recalls.

   •   For seven recalls, the strategies did not address the need to conduct effectiveness checks
       of consignees at the FDA-specified level. For example, one firm’s recall strategy for
       Salmonella-contaminated cantaloupes did not contain any information on effectiveness
       checks. The firm’s consignees consisted of distributors and retailers.

Recall Communications

Recall Guidance

Pursuant to 21 CFR § 7.49, the recalling firm is responsible for promptly notifying each
consignee at the recall depth specified by the strategy that (1) the product in question is subject
to recall, (2) further distribution or use of any remaining product should cease immediately, and
(3) the consignee should notify its customers who received the product. The notice also should
explain what to do with the product (e.g., remove the product from the market, cease distribution,
or return the product to the recalling firm).

FDA’s Industry Guidance, part B.2., states that the recalling firm should provide copies of all
recall communications with consignees to the FDA district office. These communications
should contain sufficient information to identify the recalled product.

Firms’ Recall Communications

Firms’ recall communications with consignees did not always contain accurate and complete
information and instructions on how to proceed with recalls. Although 4 of the 17 recalling


                                                 6
firms issued accurate and complete recall communications, the 13 remaining firms’
communications did not contain critical information or contained inaccurate information, such as
product lot numbers, production dates, instructions for the return of recalled products, and
instructions to consignees to notify subconsignees. For example, one firm’s recall notice
identified a 13-day production period associated with Listeria monocytogenes-contaminated
mussel meat, but the product was actually produced for an additional 5 months. Thus, significant
amounts of contaminated mussel meat remained available to the public until a corrected recall
notice was issued 22 days after the initial recall notice.

Recall Status Reports

Recall Guidance

Pursuant to 21 CFR § 7.53, the recalling firm is requested to submit periodic recall status reports
to the FDA district office so that FDA can assess the progress of the recall. Recall status reports
should contain information on the number of consignees notified of the recall and the date and
method of notification, the number of consignees that responded to the recall communication and
the quantity of products on hand at the time it was received, the number of consignees that did
not respond, the quantity of products accounted for, the quantity of products returned or
corrected by each consignee contacted, the number and results of effectiveness checks
conducted, and the estimated timeframe for completing the recall.

Firms’ Recall Status Reports

Firms did not consistently submit timely and complete recall status reports so that FDA could
assess ongoing recall activities, such as the results of the firm’s effectiveness checks. Five of the
seventeen recalling firms did not submit any status reports to FDA. The 12 remaining firms
submitted untimely or incomplete status reports:

   •   Ten firms submitted their initial status reports 2 months to 1 year after the recall initiation
       dates. For example, in a recall of uneviscerated fish potentially contaminated with
       Clostridium botulinum, FDA did not receive a status report for nearly 7 months after the
       recall initiation date. Furthermore, none of the 10 firms’ untimely status reports
       contained all required information, such as the dates, number, and results of the firms’
       effectiveness checks.

   •   Two firms submitted timely status reports that were missing requested information. For
       example, in a recall involving Salmonella-contaminated cheese, the firm’s status reports
       did not indicate the number of consignees notified, the date and method of notification,
       the quantity of products accounted for and returned, or the number and results of
       effectiveness checks conducted.




                                                  7
FOOD AND DRUG ADMINISTRATION RECALL ACTIVITIES

Firm Inspections

Food and Drug Administration Procedures

The Operations Manual, chapter 7.2, states that if FDA determines that a recalled product has a
reasonable probability of causing serious illness or death, FDA should inspect the recalling firm.
The inspection should include a review of (1) the firm’s batch records, processing logs, and other
types of production records to identify contaminated lots and associated lots and (2) a list of all
shipments of the product being recalled.

Food and Drug Administration’s Firm Inspections

FDA did not always conduct firm inspections or obtain complete information on recalled
products. For 3 of the 17 recalls, FDA inspected the firms and obtained all necessary
information. However, for the 14 remaining recalls, FDA did not inspect the firms and/or obtain
complete information on the products:

   •   For four recalls, FDA did not conduct firm inspections and therefore did not obtain
       certain information, such as the contaminated lots and a list of all shipments of the
       products. For example, in a recall of Listeria monocytogenes-contaminated mussel meat,
       FDA did not identify the contaminated lots. Without inspecting the recalling firms and
       reconciling their records, FDA could not be certain that all contaminated products had
       been identified.

   •   For 10 recalls, FDA conducted firm inspections but provided no evidence that it had
       identified contaminated lots and associated lots or reviewed a list of all shipments of the
       products. FDA’s general practice was to accept the distribution information provided by
       the recalling firm.

Audit Checks

Food and Drug Administration’s Procedures

The Procedures Manual, chapter 7-8-1, states that FDA will conduct audit checks of distributors
and retailers to assess the effectiveness of a firm’s recall effort. Chapter 7-8-2 states that the
district office often issues audit check assignments within 24 to 48 hours after learning of a
Class I recall. In addition, chapter 7-8-2 states that the district office that receives audit check
assignments should consider them high priority and, if possible, complete the assignments within
10 working days.

The Operations Manual, chapter 7.3.2.1, defines an “audit check” as a visit, telephone call, or
letter (or a combination thereof) from FDA staff to a consignee (primarily distributors and
retailers) to verify that the consignee has been notified of the recall and has taken appropriate
action. Chapter 7.3.2.3 states that if a recall strategy includes subrecalls by a firm’s direct


                                                 8
consignees, subrecall audit checks will be made at the level specified for the direct consignees.
Chapter 7.3.2.4 states that the inspector should obtain 10 specific items of information, along
with any additional information that the lead district or home district requests. For example, the
inspector should obtain the amount of the recalled product on hand when the retailer was notified
of the recall, the amount returned and method of return, the amount destroyed and method of
destruction, and the amount presently on hand and its status. 2

Food and Drug Administration’s Audit Checks

FDA either did not perform audit checks or conducted untimely and incomplete audit checks, as
follows:

    •    For 5 of the 17 recalls, FDA did not conduct any audit checks. FDA officials stated that
         two of these recalls were for perishable products, such as cantaloupes, that would most
         likely not be found on store shelves. FDA officials could not explain the lack of audit
         checks for the three other recalls. These three recalls were initiated by firms that did not
         conduct any effectiveness checks.

    •    For the 12 remaining recalls, FDA did not initiate audit checks until well after the recalls
         were completed, and/or the audit checks were missing one or more items of information,
         such as the amount of the product that the store had removed from its shelves and the
         amount still remaining. In the recall of lead-contaminated pitchers, FDA did not begin
         audit checks for more than 3 months after the recall initiation date. Even at this late
         stage, FDA found that more than 40 percent of the consignees selected for audit checks
         showed that proper action, such as posting product recall information, had not been
         taken. Had FDA performed timely audit checks, it could have better ensured that all
         retailers had removed contaminated products from store shelves.

Recall Strategies

Food and Drug Administration’s Procedures

Recall guidance (21 CFR § 7.42(a)(2)) states that FDA will review the firm’s recall strategy,
advise the firm of the assigned recall classification, and recommend any necessary changes in the
recall strategy. Furthermore, the Procedures Manual, chapter 7-7-1, instructs the FDA
monitoring district office to promptly send the firm a notification letter that includes (1) the
results of FDA’s review of the recall strategy, including, among other things, the level of
effectiveness checks that the firm should conduct, and (2) a request to notify FDA before product
destruction so that FDA can witness such action.




2
  The other specific information consists of the name and title of the person interviewed; whether the store received,
understood, and followed the notification instructions; the date and method of notification; the date of anticipated
return or destruction; whether a subrecall was conducted and, if so, a list of retailers from which the subrecall
locations were selected; and whether injury complaints had been received and, if so, details of the complaints.


                                                          9
Food and Drug Administration’s Monitoring of Firms’ Recall Strategies

FDA did not follow its own procedures for reviewing recall strategies and promptly issuing
notification letters to firms conveying the review results and essential instructions. Specifically,
for all 17 recalls, the FDA district offices did not issue notification letters until after the recalls
had essentially been completed (51 to 183 days after the recall initiation dates).

Product Disposal

Food and Drug Administration’s Procedures

Pursuant to 21 CFR § 7.55, FDA will terminate a recall only after it “determines that all
reasonable efforts have been made to remove or correct the product in accordance with the recall
strategy, and when it is reasonable to assume that the product subject to the recall has been
removed and proper disposition or correction has been made commensurate with the degree of
hazard of the recalled product.”

The Operations Manual, chapter 7.3.3.2, states that FDA’s final monitoring is a limited
inspection to verify recall closeout by the firm. During this inspection, FDA should witness
destruction of the recalled product when possible. Chapter 2.6.4.1 states that before supervising
voluntary destruction of the product, FDA should prepare a statement on the firm’s letterhead or
on an FDA Form 463a Affidavit. The statement should specify the voluntary nature of the
action, the condition of the lot, the name of the product, the amount of the product, and the
method of destruction and should be signed by the responsible individual at the firm. If FDA is
unable to witness the destruction, it should obtain written documentation from the firm and/or a
State or local government agency certifying that the product has been properly disposed of.

Food and Drug Administration’s Monitoring of Product Disposal

FDA documentation showed that FDA did not always follow its own procedures in monitoring
recalling firms’ disposal of contaminated products. For 4 of the 17 recalls, FDA provided
evidence that it had monitored the disposal of the products. However, for the 13 remaining
recalls, FDA was not able to provide evidence that it had witnessed the disposal or obtained
written documentation from the firm or a State or local government agency certifying that all
returned products had been properly disposed of. For example, in a recall of lead-contaminated
pitchers, the recalling firm, an importer with approximately 300 retail stores in 35 States, did not
provide FDA with adequate documentation that the product had been fully accounted for and
disposed of. As a result, FDA had no assurance that the returned pitchers had not been
redistributed.




                                                  10
RECOMMENDATIONS

We recommend that FDA:

   •   consider the results of this review in implementing the FDA Food Safety Modernization
       Act and

   •   follow its procedures for monitoring recalls.

FOOD AND DRUG ADMINISTRATION COMMENTS

In its written comments on our draft report, FDA agreed with our recommendations and
described actions it has taken to improve how recalls are conducted and monitored. FDA’s
comments are included in their entirety as Appendix C.




                                               11
APPENDIXES
        APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REVIEWS

FDA Inspections of Domestic Food Facilities (OEI-02-08-00080), issued April 2010. In this
congressionally requested review, we found significant weaknesses in the Food and Drug
Administration’s (FDA) inspections of domestic food facilities, including declines in both the
number of inspections and the number of violations identified by FDA inspectors. We also
found that FDA did not routinely take swift and effective action to ensure that identified
violations were remedied.

FDA’s Food Facility Registry (OEI-02-08-00060), issued December 2009. Our review of
FDA’s food facility registry found that some of the selected facilities had not registered with
FDA as required. We also found that almost half of the selected registered facilities failed to
provide accurate information either when they first registered or after the facility information
changed.

Review of the Food and Drug Administration’s Monitoring of Pet Food Recalls
(A-01-07-01503), issued August 2009. In this congressionally requested review, we examined
FDA’s oversight of pet food recalls. We found that FDA’s lack of recall authority, its sometimes
lax adherence to recall guidance and internal procedures, and the inadequacy of some of those
procedures limited its ability to ensure that contaminated pet food was promptly removed from
retailers’ shelves.

Traceability in the Food Supply Chain (OEI-02-06-00210), issued March 2009. Our review of
food traceability found that most selected products could not be traced through each stage of the
food supply chain. We also found that the majority of selected food facilities did not comply
with FDA’s recordkeeping requirements and that these requirements were not sufficient to
ensure the traceability of the food supply.
         APPENDIX B: REVIEW OF 17 SELECTED IMPORTED FOOD RECALLS

  FDA         Recall
 Recall     Initiation    Recalling Firm       Product Recalled          Reason for Recall
Event No.     Date
 47439       3/26/08     Jard Marketing     Cantaloupes (Honduras)     Salmonella
 46395      11/01/07     Mountain High      Sesame seed (Uganda)       Salmonella
                         Organics
 46213      11/19/07     Mark Foods         Frozen mussel meat         Listeria monocytogenes
                                            (New Zealand)
 44932       9/20/07     Mexican Cheese     Cheese (Mexico)            Salmonella
 46715      11/27/07     Central Seaway     Frozen mussel meat         Listeria monocytogenes
                                            (New Zealand)
 38475       8/03/07     Cost Plus World    Beverage pitchers          High lead levels
                         Market             (China)
 47485       3/23/08     Taylor Fresh       Cantaloupes (Honduras)     Salmonella
 48469       5/29/08     Fresca Italia      Cheese (Italy)             Listeria monocytogenes
 46755       2/07/08     Choyce Products    Frozen fish (Indonesia)    Salmonella
 47206       3/04/08     Union Fish         Frozen mussel meat         Listeria monocytogenes
                                            (New Zealand)
 47497       3/22/08     Legend Produce     Cantaloupes (Honduras)     Salmonella
 46892      12/21/07     Pacific American   Frozen mussel meat         Listeria monocytogenes
                         Fish Co.           (New Zealand)
 47544       3/22/08     Wuhl Shafman       Cantaloupes (Honduras)     Salmonella
 46847       2/13/08     Summit Import      Dried fish (China)         Clostridium botulinum
 39355       8/14/07     Everlasting        Dried fish (Philippines)   Clostridium botulinum
                         Distributors
 47483       3/24/08     Grand Super        Frozen fish (Korea)        Clostridium botulinum
                         Center
 46396       1/18/08     Seoul Shik Poom    Frozen fish (Korea)        Clostridium botulinum
      APPENDIX C: FOOD AND DRUG ADMINISTRATION COMMENTS
                                                      Page 1 of 2




                                                                        Food and Drug Administration
                                                                        Silver Spring, MD 20993




DATE:         April 28, 2011

TO:            Inspector General

FROM:         Acting Deputy Commissioner for Policy, Planning and Budget

SUBJECT:      FDA's Comments to OIG Draft Report entitled, FDA 's Monitoring of
              Imported Food Recalls

FDA is providing the attached comments to the Office of Inspection General Draft
RepOli Entitled, FDA's Monitoring ofImported Food Recalls.

We appreciate the 0ppOliunity to review and comment on this draft report before it is
published.




                                     Acting Deputy Commissioner for Policy, Planning
                                     and Budget


Attachment
                                                                                            Page 2 of 2



        The Food and Drug Administration's General Comments to the
                 Office of Inspector General's Oraft Report,
                 FDA's Monitoring of Imported Food Recalls

The U.S. Food and Drug Administration (FDA or the Agency) appreciates the opportunity to
respond to the Office of the Inspector General's (OIG) Draft Report. As OIG suggests, FDA will
consider enhancements to the recall process in implementing the Food Safety Modernization Act
of 2011 (FSMA). OIG's recommendations will be seriously considered as we work to implement
this important new law.

FDA implemented nonbinding regulations in June 1978 and issued subsequent guidance on
recall policy. These documents reflect that both FDA and regulated iildustries have obligations
and roles in protecting consumers from using harmful products, and that these obligations are
fulfilled by removing harmful products from the market or correcting improperly marketed
products. Although food recalls were entirely voluntary at the time of the publication of the
nonbinding regulations, recalls of violative products have been, on the whole, successful in
removing these products from use and preventing harm to the public.

The enactment of FSMA will strengthen FDA in these efforts. The new law expands FDA's
authority to regulate the safety of foods, and, among other things, gives FDA the authority to
order the recall of foods under certain circumstances. This new law gives FDA authority to order
that certain harmful and violative foods are promptly removed from commerce if firms do not
conduct a voluntary recall.

Since the original recall policy was first impleme'nted in 1978, the Agency has continued to
improve howrecalls are conducted and monitored. In addition, the Agency has seen an increase
in the number of recalls of FDA-regulated products, some of which involve the largest and most
complex recalls in FDA history. To address these issues and to make relevant improvements in
the current recall business processes, FDA is conducting a study to examine the current process
and ensure that it protects the public health and removes violative products from the marketplace
as timely and effiCiently as possible. The results of this study are under evaluation, but Some of
the proposals could include exploring the use of third parties to conduct some aspects of recall
audit checks; triaging incoming recalls based on risk profiles in an effort to stre.amline the recall
process; bolstering guidance to industry and enhancing opportunities to share best practices;
improving consumer communications; and strengthening the management of the overall recall
process. This process improvement Stu9Y will help to inform FDA's decisions about future
improvements to the recall process, and FDA will keep OIG and other stakeholders advised of
our enh';lncements to the recall process.

FDA agrees with OIG's recommendations that FDA consider the results of the OIG study in
implementing FSMA, and that FDA follow its procedures for monitoring voluntary recalls. The
new tools provided by FSMA, coupled with FDA's current recall process improvement efforts, will
benefit consumers by improving FDA's ability to remove violative produCts, from the market and to
protect the public health.

                                                                          \
